<html>
<title> - COMMITTEE FUNDING FOR THE 116TH CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                COMMITTEE FUNDING FOR THE 116TH CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2019

                               __________

      Printed for the use of the Committee on House Administration


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-587                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a0a153a190f090e121f160a5419151754">[email&#160;protected]</a>                  
         
         
                            
                            
                            C O N T E N T S

                              ----------                              

                             MARCH 12, 2019

                                                                   Page
Committee Funding for the 116th Congress.........................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................    26
Hon. Rodney Davis, Ranking Member................................    27
    Prepared statement of Ranking Member Davis...................    28

                               WITNESSES

Hon. Elijah E. Cummings, Chairman, House Oversight and Reform 
  Committee......................................................    29
    Prepared statement by Hon. Cummings..........................    31
Hon. Jim Jordan, Ranking Member, House Oversight and Reform 
  Committee......................................................    33
    Prepared statement of Hon. Jordan............................    34

                       SUBMISSIONS FOR THE RECORD

Hon. Colin C. Peterson, Chairman, House Committee on Agriculture, 
  statement......................................................     2
Hon. Adam Smith, Chairman, House Committee on Armed Services, 
  statement......................................................     4
Hon. John Yarmuth, Chairman, House Committee on the Budget, 
  statement......................................................     7
Hon. Bobby Scott, Chairman, House Committee on Education and 
  Labor, statement...............................................     8
Hon. Frank Pallone, Jr., Chairman, House Committee on Energy and 
  Commerce, statement............................................     9
Hon. Theodore E. Deutch, Chairman, House Committee on Ethics, 
  statement......................................................    10
Hon. Maxine Waters, Chairwoman, House Committee on Financial 
  Services, statement............................................    11
Hon. Eliot Engel, Chairman, House Committee on Foreign Affairs, 
  statement......................................................    12
Hon. Bennie G. Thompson, Chairman, House Committee on Homeland 
  Security, statement............................................    13
Hon. Adam B. Schiff, Chairman, House Permanent Select Committee 
  on Intelligence, statement.....................................    14
Hon. Raul M. Grijalva, Chairman, House Committee on Natural 
  Resources, statement...........................................    15
Hon. Elijah E. Cummings, Chairman, House Committee on Oversight 
  and Reform, statement..........................................    16
Hon. Eddie Bernice Johnson, Chairwoman, House Committee on 
  Science, Space, and Technology, statement......................    19
Hon. Nydia M. Velazquez, Chairwoman, House Committee on Small 
  Business, statement............................................    20
Hon. Jerrold Nadler, Chairman, House Committee on the Judiciary, 
  statement......................................................    21
Hon. Peter A. DeFazio, Chairman, House Committee on 
  Transportation and Infrastructure, statement...................    23
Hon. James P. McGovern, Chairman, House Committee on Rules, 
  statement......................................................    24
Spending cuts, growth outpace tax cuts, military increases, Roll 
  Call article of March 11, 2019.................................    40
Hon. Elijah E. Cummings, Chairman, House Committee on Oversight 
  and Reform, 116th Congress Oversight Plan......................    49

 
                COMMITTEE FUNDING FOR THE 116TH CONGRESS

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 3:04 p.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairperson of the Committee) presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Aguilar, Davis of Illinois, 
Walker, and Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; David Tucker, 
Parliamentarian; Sean Jones, Legislative Clerk; Khalil Abboud, 
Deputy Staff Director; Eddie Flaherty, Director of Operations; 
Jen Daulby, Minority Staff Director; and Tim Monahan, Minority 
Director of Oversight.
    The Chairperson. Now we will begin the Committee funding 
hearing. And I would like to thank the members, our witnesses, 
and those in the audience for being here.
    Every Congress, the House is required to adopt a committee 
expense resolution, which provides funding for all the 
committees of the House. Each committee is required to 
introduce a committee expense resolution and prepare a budget 
submission. We have received and are reviewing those budget 
submissions.
    I would ask unanimous consent for the letters regarding 
committee budgets from the chairs and ranking members of the 
committees to be entered into the record.
    Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. It is my intention to mark up an omnibus 
expense resolution on Tuesday, March 26, and for the House to 
consider it on Thursday, March 28.
    Now, understanding the quick pace of this schedule and 
after conferring with the Ranking Member, he and I decided that 
to most expeditiously consider these requests we would forego 
the usual testimony of our committee chairs and the ranking 
members only if there was bipartisan support from the chair and 
ranking member of each committee, reserving the right, of 
course, for either myself or the Ranking Member to pull 
something off the consent agenda, which we have decided not to 
do at this point.
    Obviously, this has always been a collaborative process and 
a bipartisan process, and I wish to thank the Ranking Member 
for his cooperation and assistance in enabling the Committee to 
begin this process in an expedited fashion.
    We certainly reserve the right to change this process next 
year if it doesn't work out well. But, certainly, in the past, 
we have had chairmen and ranking members sitting around all day 
long for something where there was agreement, and it seemed not 
necessarily to be a productive use of time.
    So, with that, I would recognize Ranking Member Davis for 
his opening statement, and then we will get to the one 
committee that has asked to be heard today.
    [The statement of The Chairperson follows:]
    [GRAPHIC] [TIFF OMITTED] T7587A.024
    
    Mr. Davis of Illinois. Thank you, Chairperson Lofgren.
    I readily agreed to your suggestion that if there is 
bipartisan consensus between the chairs and the ranking members 
of the committees regarding their funding requests they ought 
to be able to submit the paperwork and we will do a thorough 
review of their requests and ensure that we move those requests 
forward.
    I think each chairperson and ranking member understands 
that, even though they may have an agreement on their budget 
request, it may not be what this Committee ends up agreeing to.
    That being said, we see that there is disagreement on one 
committee. I am looking forward to hearing from Chairman 
Cummings and Ranking Member Jordan on that disagreement.
    But, you know, even though not all the chairs and the 
ranking members are coming to testify before us today, we will 
do that thorough review.
    I request, Madam Chairperson, in order to conduct proper 
oversight of the committee funding, I would like to request 
that we keep the section requiring a review of the use of funds 
in the first session in this Congress's funding resolution. I 
think it gives our Committee the option of requesting that the 
chair and ranking member of each committee provide a review of 
the use of the funds in the first session and an update on any 
changes to anticipated expenditures for the second session.
    The Chairperson. If the gentleman would yield?
    Mr. Davis of Illinois. Yes.
    The Chairperson. It was not my intention to change the 
processes, simply to waive them in this case because it is 
inconsistent. Now. We may decide that there is not a reason to 
bring people in----
    Mr. Davis of Illinois. Sure.
    The Chairperson [continuing]. But because this has been 
bipartisan and I expect it to continue to be so, you know, we 
are not eliminating those tools.
    Mr. Davis of Illinois. Well, I appreciate that.
    And that is the only request I had. I appreciate your 
consideration and, most importantly, your cooperation that you 
have already shown us.
    So I will yield back the balance of my time, and we can get 
to Chairman Cummings and Ranking Member Jordan.
    [The statement of Mr. Davis of Illinois follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Well, we will invite the chairman and 
ranking member of the Oversight Committee to take their seats 
and to address us.
    We ordinarily operate under the 5-minute rule so we will do 
so at this time. If you are ready, Chairman Cummings, we would 
be happy to recognize you for 5 minutes and then the Ranking 
Member, Mr. Jordan.

 STATEMENT OF THE HON. ELIJAH E. CUMMINGS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cummings. Thank you very much, Madam Chairperson.
    To Chairwoman Lofgren and Ranking Member Davis and to 
Members of the Committee, I thank you very much for this 
opportunity to testify before you today regarding our budget 
submission for the Committee on Oversight and Reform for the 
116th Congress.
    As you know, we submitted our formal request on Friday with 
the supporting documentation. I will not recount everything in 
that submission, but I would like to briefly make four key 
points.
    First, over the past 10 years, the Oversight and Reform 
Committee's budget has been reduced dramatically, from about 
$22.3 million in the 111th Congress to $18.3 million in the 
last Congress. For the Committee's review, I have submitted a 
summary of our budget reductions over the last decade.
    I understand that there were many reasons for that, but the 
bottom line is that we have not been able to fill out our 
allocated staffing slots in many years. At our existing funding 
level, we will have 25 vacancies for existing staff slots that 
we are not able to fill. Fifteen of these vacancies are on the 
majority staff, and 10 are on the minority staff.
    Second, we understand the financial challenges that you are 
facing, and we have tried to respect those limitations. As a 
result, we are not asking for full funding to restore us to 
levels we were 10 years ago. The Oversight and Reform Committee 
would need a funding increase of approximately 22.3 percent to 
restore funding to the level that we were 10 years ago.
    Instead, we are requesting only a modest 4-percent increase 
this year, followed by a 10-percent increase next year. From my 
perspective, this would be a downpayment toward restoring full 
committee funding in future years to fill the essential 
oversight staff positions that have long been vacant.
    Third, I understand that other committees may be seeking 
much bigger increases, some even as large as 20 percent. 
However, I would like to point out that, in the last Congress, 
the Oversight and Reform Committee received one of the most 
minuscule increases compared to other committees. Our 
Committee's 1.11-percent increase was the second-smallest among 
20 House committees. Other committee increases range from 2 
percent to more than 30 percent.
    Finally, our work, in particular, is designed to root out 
waste, fraud, and abuse, and this often results in direct 
savings to the taxpayers. Eliminating duplication and 
inefficiency can translate into real savings in both the short 
term and long term. That is one of the special benefits of the 
good work that our Committee does.
    Let me close with this. As the primary investigative 
committee of the House of Representatives, the Oversight and 
Reform Committee has one of the broadest jurisdictions of any 
committee in the House. We are charged with conducting robust 
and responsible oversight of the entire Federal Government and 
beyond.
    We are not only conducting robust and responsible oversight 
of the executive branch in this administration, we are also 
overseeing ONDCP's efforts to combat the opioid crisis that 
claimed more than 70,000 lives last year; we are conducting 
hearings on the upcoming census next year, which is facing 
extremely significant challenges; we are working on a 
bipartisan basis to address the financial troubles at the 
Postal Service; and--as I close--and we are investigating the 
skyrocketing prices of prescription drugs.
    Beginning the process of restoring the Oversight and Reform 
Committee's funding will send a strong signal that the House of 
Representatives is taking seriously its oversight 
responsibilities under the Constitution.
    And, with that, I yield back.
    [The statement of Mr. Cummings follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairperson. Thank you, Mr. Cummings.
    Mr. Jordan, you are recognized for 5 minutes.

STATEMENT OF THE HON. JIM JORDAN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Jordan. Chairperson Lofgren, Ranking Member Davis, 
thank you for having us today. I am pleased to be here with the 
chairman.
    I have the utmost respect for Chairman Cummings, but I 
respectfully disagree with the proposed budget. This is very 
simple. This is about setting an example.
    I mean, everyone knows the facts. We are going to run a 
$900 billion deficit this year. Trillion-dollar deficits for 
the next decade is the projection. In addition, CBO projects 
that Federal outlays will amass $4.4 trillion in fiscal year 
2019 and up to $7 trillion in fiscal year 2029.
    Simply put, our Federal Government has grown out of 
control. In this environment, it seems to me we should be 
giving money back to the American taxpayer, certainly not 
increasing budgets for Congress. As I said, this is real 
simple. It is about setting an example.
    Understand this, too: The last year of the Obama 
Administration, just 4 years ago, the budget for the Oversight 
and Reform Committee was more than it is now, and Chairman 
Cummings still seeks an increase. I understand where it was 10 
years ago, but just 4 years ago we were doing--the Committee 
was functioning on a level that is higher than what we are 
currently at, and the Chairman is asking for an increase.
    I respectfully submit for your consideration that the 
funding level for the Committee on Oversight and Reform should 
remain unchanged from the previous Congress.
    I want to thank you again, Chairperson Lofgren and Ranking 
Member Davis. We are happy to answer any questions.
    [The statement of Mr. Jordan follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. The gentleman yields back.
    Now is the time where Members can ask questions of either 
the Chair or the Ranking Member. I will turn first to Mr. Davis 
for any questions he may have.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    Thank you, Chairman Cummings and Ranking Member Jordan.
    Ranking Member Jordan, I appreciate your concerns. We 
should have a concern about how our allocations are moving 
forward and how we, as Republicans and Democrats, work together 
to lower the cost to taxpayers in everything we do within this 
legislative branch.
    Can you elaborate a little more, Mr. Jordan, on some of the 
concerns maybe with the increased dollars within your Committee 
operations or any other issues that we as a Committee might 
need to know about before we make this decision?
    Mr. Jordan. Yeah, maybe I will just--I will just look at 
the numbers here. The current budget right now is $200,000 more 
than it was in the 114th Congress, and the Chairman is seeking 
a $1.7 million increase.
    I just--again, I come back to the basics. I think there are 
all kinds of families across this country who have had to live 
on the same thing they did in previous years. I don't know why 
the government can't, as I said before, lead by example and 
function on where we were in previous Congresses.
    Mr. Davis of Illinois. Mr. Jordan, you and Chairman 
Cummings have agreed on the two-thirds/one-third ratio for 
funds that you already have established and any future funds 
too, right?
    Mr. Cummings. That is correct.
    Mr. Davis of Illinois. That is correct? Thank you, 
Chairman.
    I will go to you, Chairman Cummings. A $1.7 million 
increase in funding. I noticed through some of your requests, 
obviously you look at some of the investigatory issues that you 
may be facing as a committee in the future. What do you think 
is going to be the costliest portion of your oversight agenda?
    Mr. Cummings. I am not sure, but I can tell you that when 
you have slots where you have 15 people, positions you can't 
fill, that means that my people are working night and day, day 
and night. It is not unusual, by the way, for my staff to be 
working at 4 o'clock in the morning, literally. It is quite a 
bit--we get a lot of getting documents in, have to oversee 
them.
    So basically what we want to do is make sure that people 
have decent working conditions and are able to do their jobs in 
an efficient and effective manner. There are two words that I 
govern my staff by, and that is ``efficiency'' and 
``effectiveness.'' And I am going to tell you, if you or any of 
us were working at 4 o'clock in the morning and then had to 
come back at 9, you are not going to be but so effective.
    So, you know, again, we have had very minuscule increases. 
Other committees have gotten far more than what we have gotten. 
And I just think that, when you think about the breadth of our 
jurisdiction, I think it is only appropriate.
    Another thing that a lot of people don't consider is that 
we are now in a social media situation, where 10 years ago the 
social media was not near what it is now. Now somebody can just 
sit at a computer; next thing you know, they are shooting all 
kinds of letters and information to us. And so we just want to 
be in a position to appropriately deal with that, again, in an 
effective and efficient manner without working our employees to 
death.
    Mr. Davis of Illinois. Well, Mr. Chairman, I certainly 
understand the impact social media has made on how we do our 
jobs here in Congress.
    Mr. Jordan, at what level would you think that the 
Committee should be funded at?
    Mr. Jordan. Keep it where it is at. I mean, Twitter 
shouldn't drive a $1.7 million decision. I mean, come on.
    Look, we can do it. We have 25 people who work for the 
Republican side. We are committed to working hard, just like 
the Chairman talked about. Everyone, I think, wants their staff 
to work hard, and they all do.
    But we have to, as I said over and over again--maybe for 
once, Congress should step up and set a little bit of an 
example and say, at a time when we are running trillion-dollar 
deficits for the next decade--that is the projection--at a time 
when we have a $22 trillion debt, I don't think it is good 
enough to tell the taxpayers, oh, people are on Twitter, we 
need a $1.7 million increase. I just don't think that works.
    Mr. Davis of Illinois. Well, Mr. Jordan, Mr. Cummings----
    Mr. Cummings. I got to say something about that.
    Mr. Davis of Illinois. Okay.
    Mr. Cummings. I will not leave here with somebody talking 
about Twitter----
    Mr. Jordan. You brought up social media----
    Mr. Cummings. Let me finish.
    Mr. Jordan [continuing]. Mr. Chairman, I didn't.
    Mr. Cummings. May I finish?
    The Chairperson. Yes.
    Mr. Cummings. I have the floor.
    Let me be abundantly clear. According to many, we have one 
of the best staffs on Capitol Hill. I plan to keep it. I care 
about his staff, and I care about mine.
    Mr. Jordan. We----
    Mr. Cummings. Let me finish. I have the floor.
    I have never--on this Committee, I have stood up for his 
staff and mine, because these are public employees. A lot of 
times, they are criticized over and over again, but they 
deserve to have decent working conditions.
    And all I am just--and I hate it that it has been put to 
Twitter. Strike all of that. All I am saying, decent working 
conditions. We want to set an example, but we are also going to 
set an example of excellence.
    The Chairperson. The gentleman's time has expired, but I am 
sure we will have an opportunity, because other Members may 
want to weigh in.
    The gentleman from Maryland is recognized for 5 minutes.
    Mr. Raskin. Madam Chairperson, thank you so much.
    Chairman Cummings, first, I want to thank you for coming 
today, and I want to thank you for the extraordinary work you 
are doing as Chairman of the Oversight and Reform Committee. 
You are relentless, you are focused, and you are 
fair<dagger>minded every step along the way in trying to ferret 
out corruption, waste, fraud, abuse, and lawlessness in every 
branch of government.
    Mr. Cummings. Thank you.
    Mr. Raskin. You are a gentleman. Because I have watched 
you; you are a gentleman, and you treat people with fairness 
and with kindness.
    Second, I am sorry, I know that your knee still hurts you, 
and I am sorry you had to come all the way down here for this 
hearing. But fair enough. I like the new process that the chair 
is instituting here, and I think that we can proceed on a 
bipartisan basis.
    Now, let me say this. The Oversight and Reform Committee 
budget was reduced from $22.3 million in the 111th Congress to 
$18.3 million in the last Congress. You would need a 22-percent 
increase in order to just get back to the level that Oversight 
had a decade ago. But you are not asking for a 22-percent 
increase. You are asking for a 4-percent increase, as I 
understand it.
    Now, the job of the Oversight and Reform Committee is to go 
after waste, fraud, abuse, duplication, corruption, 
inefficiency, ineffectiveness in the Federal Government. If 
there is any committee you think we should be investing more 
in, certainly it is the committee that is trying to save the 
taxpayers--I am not talking about a million or 2 million here; 
we are talking about billions of dollars.
    We have had hearings where we have discovered that there is 
$150 billion unaccounted for in the Department of Defense, 
right? Waste, fraud, and abuse.
    Say something about what you see as the principal purpose 
of your committee.
    Mr. Cummings. Well, first of all, you are absolutely right. 
We are looking not only at waste, fraud, and abuse, but we are 
also looking at the way--and this is something that we have not 
talked about a lot here, but the way employees are treated. As 
you know, we have had some real problems with regard to sexual 
harassment in the various agencies. But the waste, fraud, and 
abuse is significant. Because we are saving a lot of money.
    A lot of people--we have three people, Congressman, on my 
staff, I call them the drug team, and what they deal with is 
the high price of prescription drugs. If you follow headlines, 
we have already seen the impact that they have had, these three 
people--three people--have had on stock prices with regard to 
drugs. I mean, it has been astronomical, saving the taxpayers 
money.
    And, by the way, it is not just government. We are looking 
at the opioid crisis. We are looking at a whole lot of things 
that might not normally get the attention.
    Right now, for example--and this is something that goes 
along with what you just said. We have Commerce Secretary 
Wilbur Ross coming in tomorrow, Madam Chairperson, Secretary 
Wilbur Ross coming in tomorrow, and he is going to talk about 
this citizenship question. That affects all of us, with regard 
to the census.
    He has already been told--he came to us and said--he told 
the Congress that the citizenship question--I am going to be 
very brief--came from DOJ. Come to find out, it came from Steve 
Bannon. And that one question will affect redistricting, 
distribution of funds, reapportionment, a whole lot of things.
    So, again, I believe our savings, the savings will--
whatever you all give us, we will give it back in savings by 
rooting out----
    Mr. Raskin. Yeah.
    Mr. Cummings [continuing]. Fraud, waste, and abuse.
    Mr. Raskin. But, Mr. Chairman, let me ask you this. I 
understand, I think, every other committee is getting some at 
least modest increase, except for the Budget Committee, which 
didn't request it, but every other single committee. This is 
the only one where there has been an objection, the Oversight 
and Reform Committee, which is looking into corruption 
throughout government and in the corporate sector, the private 
sector, as you say.
    Do you find some irony in the fact that we voted--or at 
least some people voted for a $1.5 trillion tax cut to the 
wealthiest interests in the country and then come back and 
complain about a $1.5 million increase to go after the 
corruption that exists in government?
    Mr. Cummings. Yes, I do.
    Mr. Raskin. Okay.
    Well, let me just say, finally, again, as a Marylander, I 
am very proud, especially, of the work you are doing for the 
whole United States of America. Thank you for your testimony.
    The Chairperson. The gentleman yields back.
    Would the gentleman from North Carolina like to be 
recognized?
    Mr. Walker. Yes. Thank you, Madam Chairperson.
    The Chairperson. And you are recognized for 5 minutes.
    Mr. Walker. Thank you. I just have one question. Shouldn't 
be that long.
    I served on the House Oversight and Reform Committee for 4 
years and echo some of the comments, the compliments by Mr. 
Raskin as far as the character and integrity that I have seen 
you display, and I don't mind going on the record sharing that.
    The question, as far as the $1.7 million, the additional 
money, Chairman Cummings, you mentioned working conditions. I 
wrote down two or three things here. Where is the bulk of that 
money? I know we don't have an exact budget. Is it to working 
conditions? Is it to additional employees? Do you feel like 
that more investigations are part of the projection? Or is it a 
combination of all of the above?
    Mr. Cummings. A combination of all of the above.
    There are probably some things that we want to look at. 
There is so much to look at. As I have said many times, we have 
so many things that are coming towards us. We are at a time 
when a lot of people, career employees, are very dissatisfied. 
And so you have a lot of people who are concerned about what is 
going on in government.
    We could not even get to probably--we will, at best, get to 
about a third of the things that we need to get to.
    Mr. Walker. Okay. All right.
    And since we are passing out accolades, I would be remiss 
if I didn't say the Jim Jordan I know is consistent. His style 
may not always be for everybody, but he is somebody who is a 
truth-seeker. And it has been a privilege to work with him as 
well.
    With that, I yield back, Madam Chairperson.
    The Chairperson. The gentleman yields back.
    The gentleman from North Carolina, do you wish to be heard 
for 5 minutes?
    Mr. Butterfield. I do, Madam Chairperson. Thank you very 
much for recognizing me.
    Let me just say at the outset that I find it so interesting 
that Mr. Jordan has come forward today to lecture us on fiscal 
discipline.
    I want to read to you an article that appeared in 
yesterday's Roll Call. I just happen to have it in my pocket 
for another reason today. But I want to just put it in the 
record today. It said the following.
    The Chairperson. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Butterfield. For the fiscal year that begins October 
1st, President Trump would increase defense spending by 5 
percent, to $750 billion, despite a spending cap imposed by a 
deficit-reduction law. To get around the cap, the budget calls 
for funneling $165 billion into a war-related account.
    At the same time, President Trump would cut nondefense 
programs by 5 percent from current levels and cancel previously 
approved projects, to total about $55 billion in reductions.
    Total discretionary spending, combining defense and 
nondefense, would be trimmed by 1.8 percent in the coming year 
to $1.3 trillion. The rest of the budget is made up of 
entitlement programs like Social Security and Medicare.
    If all of the administration's recommendations were carried 
out, deficits would continue to decline. But the plan also 
assumes a continuation of robust economic growth.
    Trump would also renew his fight over a border wall and up 
the ante by requesting $8.6 billion in fiscal 2020, a 50-
percent increase from the 5.7. The new, larger request includes 
$5 billion for Homeland Security, combined with $3.6 billion 
for military construction. The VA, the Department of Veterans 
Affairs, would get a 7-percent increase, and the Department of 
Homeland Security would get a 7.4-percent increase.
    So that is the President's budget. For Mr. Jordan to come 
today to say that the hardworking committee that is charged 
with the responsibility of government oversight cannot have the 
resources to evaluate and to monitor the executive branch, I 
believe, is disingenuous.
    It is also instructive that this is the only committee out 
of--how many committees do we have?--20, 21 standing committees 
in the House, this is the only committee where the Ranking 
Member and the Chairman of the committee cannot reach a 
consensus on budgeting for that committee.
    I would vote to give the committee the 4-percent increase 
that Mr. Cummings has requested. And I would ask that perhaps 
some of the comments that we have heard today be also addressed 
to the executive branch and to the President himself.
    Thank you. I don't have any questions.
    Mr. Cummings. Mr. Butterfield?
    Mr. Butterfield. Yes.
    The Chairperson. Mr. Cummings.
    Mr. Cummings. Just 1 second.
    Mr. Butterfield. Yes.
    Mr. Cummings. I want you to know that, in all my years as 
Ranking Member, I have always, with Issa, Chaffetz, and Gowdy, 
come in with them and we jointly asked for--we jointly did our 
budget request of this Committee.
    Mr. Butterfield. I just don't want your committee to be a 
guinea pig on fiscal discipline.
    Mr. Cummings. I understand.
    Mr. Butterfield. Fiscal discipline belongs----
    Mr. Cummings. But I want you to understand----
    Mr. Butterfield. Yes.
    Mr. Cummings [continuing]. We have done that in the past.
    Mr. Butterfield. Yes.
    Mr. Cummings. We have been able to come together in the 
past and----
    Mr. Butterfield. Well, if I am given the opportunity, I am 
going to vote to give you the resources.
    Mr. Cummings. Thank you.
    Mr. Butterfield. And with a one-third match to the 
Republicans as well.
    Mr. Cummings. Of course.
    Mr. Butterfield. Thank you.
    Thank you. I yield back.
    The Chairperson. The gentleman yields back.
    Would the gentleman from Georgia like to be heard?
    Mr. Loudermilk. Yes, Madam Chairperson.
    The Chairperson. The gentleman from Georgia is recognized 
for 5 minutes.
    Mr. Loudermilk. I appreciate both Chairman Cummings and 
Ranking Member Jordan coming in today.
    Look, you guys have disagreements, and that is good, that 
is fine. I appreciate, Mr. Cummings, your testimony in here. I 
appreciate Mr. Jordan's testimony.
    I think if we had a few more like Mr. Jordan maybe we would 
find a way out of this $22 trillion debt. But even as I go back 
home sometimes and I talk about people who are concerned about 
the debt, they are very concerned about the debt until it comes 
to cutting the one thing they are interested in. And until we 
are willing to do that, we are never going to get out of debt. 
So I appreciate Mr. Jordan coming in and standing up and taking 
his stance.
    I actually have some questions. I actually do read the 
stuff that people send. I will start with Chairman Cummings.
    One of the items listed in here is updating the camera 
systems for your committee. The first question is, the camera 
systems that are mentioned, are those for the main committee 
room, or are they for, like, a video production system?
    Mr. Cummings. Main committee hearing room.
    Mr. Loudermilk. Okay. A followup: What is the issue with 
the cameras you have now?
    I just--and I know your staff has most of the answers. You 
recently had a committee hearing that a fairly prominent person 
was on, and millions of people across the Nation watched Mr. 
Cohen.
    In fact, we had the Chairman of the Federal Reserve in 
Financial Services that day, which normally gets a lot of media 
attention, but you guys sucked the wind out of the room for 
everybody. I walked into our anteroom and all the staff was 
watching, in pretty good quality, all the hearings that were 
going on with Mr. Cohen.
    It seemed to work well then, so my question really is, what 
is the issue?
    Mr. Cummings. They are outdated, and they have a tendency 
to malfunction.
    Mr. Loudermilk. Okay.
    Mr. Cummings. So we just want to bring them up to date.
    Mr. Loudermilk. Okay. Fair enough.
    Mr. Jordan, have you experienced the same problems in the 
years you have been on the committee?
    Mr. Jordan. No, I would just--look, in the 114th Congress, 
2015-2016, $18,059,682 to run the committee. In the 116th 
Congress, the proposal is for $19,939,573. I mean, like, that 
number back in 2015 was actually less than what the current 
budget is. So it is already an increase from where it was the 
final years of the previous administration, but they want even 
more.
    I think we can do it. I think we can get by with the 
cameras that are there, as an example. They seemed to work 
fine, as you point out, 2 weeks ago.
    I will tell you what didn't work fine 2 weeks ago. Their 
first big hearing, the first--think about this--the first 
announced witness of the 116th Congress, Michael Cohen, a guy 
who is going to prison in 2 months for lying to Congress. And 
when they brought him in front of the committee, what did he 
do? What did he do? He lied seven times.
    We have sent a criminal referral letter to the Justice 
Department. Two are absolutely, 100 percent positive we know he 
did. He said he didn't want to work at the White House, and 
everyone else said, yes, he did. He said he didn't seek a 
pardon and even his lawyer said he was looking at a pardon.
    So they need more money for those type of hearings? I don't 
think so. More money to bring in someone in front of Congress 
who has already lied to Congress and was brought in front of 
Congress again and did what? Lied again.
    So, again, we are not asking to cut anything. We are just 
asking to hold the line.
    Mr. Loudermilk. I do have a few more questions, as well, 
with you, Mr. Jordan. You have been on the committee for 
several years. Were we at 100 percent of all the staff slots in 
the last 4 years?
    Mr. Jordan. No.
    Mr. Loudermilk. No?
    Mr. Jordan. Not under Chairman Gowdy, no.
    Mr. Loudermilk. Mr. Cummings, your request, will that bring 
up--the request for additional funding for additional staff 
members----
    Mr. Cummings. It will help a whole----
    Mr. Loudermilk. Will it bring it up to full?
    Mr. Cummings. No, but it will help.
    Mr. Loudermilk. It will help? Help----
    Mr. Cummings. I don't have all of that. I can supply that 
to you.
    Mr. Loudermilk. Okay.
    Mr. Cummings. But let me say this. When we talk about 
truth, let's be honest. Let's be honest. I have heard this 
untruth--and I usually don't use that word--about the first 
witness that we brought was Michael Cohen. That is a lie, and I 
don't use that word lightly. And he knows that.
    The first witness that we presented was a woman with regard 
to prescription drugs, a lady named Ms. Worsham. He saw her. A 
lady came in and her 22-year-old daughter died because she 
couldn't get $333 worth of insulin a month.
    Mr. Loudermilk. I would like to reclaim----
    Mr. Cummings. No, no, no, no. I just----
    Mr. Loudermilk [continuing]. Whatever time----
    Mr. Cummings [continuing]. Want to make sure that is clear.
    Mr. Loudermilk. Yeah.
    Mr. Cummings. Then we had another hearing, and then this 
was our third hearing, the Cohen hearing. So let's be honest 
now. Let's be truthful.
    Mr. Loudermilk. I will just close with this. I appreciate 
what Mr. Butterfield said, but, from my recollection, the 
President did go and ask for 5-percent cost reductions from all 
of the Cabinet and all the agencies in the government.
    I yield back.
    Mr. Jordan. Madam Chairperson, could I clarify something?
    The Chairperson. Briefly. I want to get to the gentlelady 
from Ohio.
    Mr. Jordan. I said the first announced witness of the 116th 
Congress was in fact Michael Cohen from this committee, and I 
said the first big hearing. Now, if you want to say that wasn't 
a big hearing----
    The Chairperson. Well, I----
    Mr. Jordan [continuing]. two weeks ago, we can have that 
debate, but I said the first big hearing.
    The Chairperson. I think that is really a diversion from 
the funding request, if I may.
    Mr. Jordan. I just want to be clear on the record.
    Mr. Cummings. And I want to be clear too.
    The Chairperson. The gentlelady from Ohio is recognized.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    I thank you both for being here. I just really have some 
comments as well.
    Just in the last year, we paid farmers $13 billion because 
of bad trade policy. We found $13 billion. The President wants 
$8 billion for a wall that we don't need. A trillion and a half 
in cuts to the very wealthiest people in this country.
    We can't find $1 million to help everyday people to make 
sure that they can afford their prescriptions? We can't help 
everyday people determine that they can vote the way that they 
are supposed to? We can't help people who are dying from 
opioids? $1.5 million. But we spent $13 billion to pay farmers 
because of a bad trade policy of the President; $5 billion, to 
now $8 billion, for a wall that we don't need.
    We spent in the last 8 years millions and millions of 
dollars, just--I could just name one silly investigation now. 
We looked at Benghazi three times. I don't remember hearing 
anybody complain about it on your side. Our side did.
    So if we can find money to do that, clearly we can find 
money to take care of people, everyday, hardworking people, to 
be sure that they know their government is working for them, 
that we are trying to be sure that there is no waste, fraud, 
and abuse--and we know that there is plenty--and to hold 
accountable the people that we pay. I don't think that is too 
much to ask, Madam Chairperson.
    I yield back.
    The Chairperson. The gentlelady yields back.
    Would the gentleman from California like to be heard for 5 
minutes?
    Mr. Aguilar. Just a few questions, Madam Chairperson. I 
don't plan on using my entire time.
    Mr. Chairman, with respect to the budget submittal before 
us, Mr. Chairman, I wanted to just understand the role of 
Oversight, which I understand does take resources. Does the 
committee plan on investigating the role the administration 
played in implementing the family separation policy at the 
border?
    Mr. Cummings. Yes.
    Mr. Aguilar. Does the committee plan on investigating the 
role the administration played in the preparation and response 
to Hurricanes Irma and Maria?
    Mr. Cummings. Yes. It is one of my top priorities.
    Mr. Aguilar. Does the committee plan on investigating the 
ongoing water crisis in Flint, Michigan, and the 
administration's failure to address it?
    Mr. Cummings. Matter of fact, I just asked my staff about 
that last night. Yes. We have not tied that up yet.
    Mr. Aguilar. Does the committee plan on investigating 
reports on the Trump Organization's process for identifying 
payment from foreign governments and foreign government-
controlled entities?
    Mr. Cummings. Yes.
    Mr. Aguilar. Does the committee plan on investigating the 
White House security clearance process and reports that the 
President personally intervened to grant clearances to his 
daughter and son-in-law against the recommendation of the 
intelligence----
    Mr. Cummings. Definitely, but right now the White House has 
been stonewalling us on information. But we are getting there.
    Mr. Aguilar. Does the committee plan on investigating the 
possible misuse of government-owned aircraft for personal use 
by Trump administration officials?
    Mr. Cummings. Yes. We have been investigating that for a 
while.
    Mr. Aguilar. Does the committee plan on investigating the 
multiple ethics violations by former EPA Administrator Pruitt?
    Mr. Cummings. Yes.
    Mr. Aguilar. Does the committee plan on investigating 
allegations that the Department of Homeland Security violated 
whistleblower protection laws?
    Mr. Cummings. Yes.
    Mr. Aguilar. Thank you. Appreciate it.
    The Chairperson. The gentleman yields back.
    We are not having a second round, but the Ranking Member 
has asked to be recognized for a couple of additional questions 
or comments.
    Mr. Davis of Illinois. Thank you. Just quick comments.
    I certainly hope--I mean, I think we get the gist of what 
your committee is going to do by basically creating an 
investigatory environment for the executive branch.
    I certainly hope that the committee chair will take into 
consideration our desires to ensure that, you know, processes 
that maybe the Ranking Member will bring up in regards to a 
FISA warrant that was requested during the last 
administration--I certainly hope your committee will take the 
time, with additional resources, to actually investigate those 
officials too.
    But my issue is, you know, you mentioned the Cohen hearing. 
Do you plan on having Mr. Cohen back as part of these----
    Mr. Cummings. Not--no, I don't.
    Mr. Davis of Illinois. Okay. I mean, we had a 5-hour markup 
in here where we probably resembled the Oversight and Reform 
Committee a little more than we usually do, and it took about 5 
hours that day, but nobody really covered us either. Your 
cameras were very well viewed.
    My issue is, I thought--and this is something you might 
want to go back and work with your staff on. I thought all the 
cameras in the hearing rooms were covered by a reserve fund 
under the CAO for renovations and wouldn't come out of your 
budget anyway. So that may be an issue that you might want to 
address with your staff.
    Mr. Cummings. Yeah, I will check with my staff on it. But 
believe me, I have one of the best chiefs of staff. He is right 
here. Dave Rapallo.
    Mr. Davis of Illinois. Yeah, no, no. I am a 16----
    Mr. Cummings. If he says there is a problem, there is a 
problem.
    Mr. Davis of Illinois. I am a former 16-year Congressional 
staffer----
    Mr. Cummings. Yeah.
    Mr. Davis of Illinois [continuing]. I have a lot of respect 
for staffers. I really do.
    Mr. Cummings. We are very careful with the people's money.
    Mr. Davis of Illinois. So are we. That is why I wanted to 
at least bring it to his attention, to your attention. You 
might want to go back with your figures and address that in 
your request, because that should not count towards your 
request.
    I want to make sure that we also put this into perspective. 
What you are asking for in an increase in just personnel 
compensation of about $800,000 the first year. That is 72 
percent of each Member of Congress's MRA. And what you are 
asking for the next year is another $900,000, which is another 
about 81 percent of an MRA request.
    I just want to put this into perspective, considering how 
we Members operate our offices, before we go forward.
    With that, thank you both for being here. I really 
appreciate----
    Mr. Cummings. Would the gentleman--may I answer?
    The Chairperson. The Ranking Member yields back.
    The Chairperson recognizes herself for 5 minutes.
    Mr. Cummings. Yeah, I just wanted to say, we have our 
entire oversight plan that we have submitted last week, and it 
sets forth a very large set of investigative priorities ranging 
from hurricane-response efforts to preventing retaliation 
against whistleblowers----
    The Chairperson. We will make that a part of our record, 
Mr. Chairman.
    Mr. Cummings. It is a lot.
    The Chairperson. We will make that part of the official 
record.
    Mr. Cummings. Thank you very much.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chairperson. I would just note that, you know, part of 
what your committee is dealing with were very substantial 
decreases in prior Congresses: in the 113th, an 8-percent 
decrease; 113th Congress, an almost 14-percent decrease. And so 
here you are with a lot to do, and so I recognize that.
    I respect that you have always supported your Chairmen's 
requests----
    Mr. Cummings. Always.
    The Chairperson [continuing]. Even though you might not 
have agreed with them completely in the past, which has been, I 
think, the pattern for the Congress.
    So I will note that this Committee and all the others do 
important work. When you look at the staffing of Congress, 
compared to the entire Federal Government, we are really not 
staffed up to take the kind of scrutiny that is required over 
Federal agencies.
    We are the first branch of government. We have 
responsibilities. We need to make sure that not only in our 
individual offices but in our committees that we are equipped 
to discharge those obligations in an efficient and professional 
manner.
    I will note that we have received, not just with this 
committee request but with other committees, requests for 
increases. The appropriations bill has already been passed for 
this year, and so we are operating within that constraint. So, 
meritorious as many of these requests may be, we are going to 
have to put on our green eyeshades and see what can be done for 
all of the requests that are coming in, as well as the Members' 
Representational Allowance. We will do our very best within the 
constraints that we have. And we will be doing the markup when 
we return from the recess.
    Thank you both very much for being here.
    And I believe that is the only testimony we have so we can 
adjourn this hearing without objection and we will reconvene 
after the recess for the actual allocations.
    Without objection, we are adjourned.
    [Whereupon, at 3:46 p.m., the Committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
